Counsel to be served are as follows:
Glenn E. Roper
Pacific Legal Foundation
930 G Street
Sacramento, CA 95814
Tel: (916) 419-7111
geroper@pacificlegal.org
Counsel for Petitioners
James E. Haney
Ogden Murphy Wallace P.L.L.C.
901 Fifth Avenue, Suite 3500
Seattle, WA 98164
Tel: (206) 447-7000
jhaney@omwlaw.com
Counsel for Respondent City of Bainbridge Island, WA
Peter B. Gonick
Deputy Solicitor General
Office of the Attorney General
PO Box 40100
Olympia, WA 98504-0100
Tel: (360) 753-6245
peter.gonick@atg.wa.gov
Counsel for Respondents Washington Department
of Ecology & Growth Management Hearings Board

